No. 20-257
In the

Supreme Court of the United States
CHIPOTLE MEXICAN GRILL, INC.
AND CHIPOTLE SERVICES, LLC,
Petitioners,
v.
MAXIMO SCOTT, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF AMICUS CURIAE OF THE WAGE
& HOUR DEFENSE INSTITUTE IN
SUPPORT OF PETITIONERS
Joseph G. Schmitt
Counsel of Record
Courtney M. Blanchard
Mark J. Girouard
Pablo Orozco
Daniel J. Supalla
Nilan Johnson Lewis PA
250 Marquette Avenue South,
Suite 800
Minneapolis, MN 55401
(612) 305-7500
jschmitt@nilanjohnson.com
Counsel for Amicus Curiae
298584

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF THE AMICUS CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT  . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

Scott Unreasonably Prevents Lower
Courts from Balancing Multiple Factors
to Achieve a Fair Result Consistent with
Due Process and Deepens the Circuit Split
Regarding FLSA Conditional Certification
and Decertification . . . . . . . . . . . . . . . . . . . . . . . . . 3

II. Scott’s Decertification Test Has Been
Interpreted By Plaintiffs to Create a New,
and Improper, Conditional Certification
Standard . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
III. Scott Ensures the Second Circuit Will
Disproportionately Impact FLSA Case
Law . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
IV. Scott Will Result in an Increase in FLSA
Claims Styled as Nationwide Collective
Actions, Resulting in Vast Manageability
Issues for Litigants and Courts . . . . . . . . . . . . . 14
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

ii
TABLE OF CITED AUTHORITIES
Page
CASES
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Bartley v. Euclid, Inc.,
158 F.3d 261 (5th Cir. 1998), vacated on other
grounds, 180 F.3d 175 (5th Cir. 1999) . . . . . . . . . . . . 14
Benedict v. Hewlett-Packard Co.,
No. 13-CV-00119-BLF, 2016 WL 3742342
(N.D. Cal. July 13, 2016) . . . . . . . . . . . . . . . . . . . . . . . . 5
Bigger v. Facebook, Inc.,
947 F.3d 1043 (7th Cir. 2020) . . . . . . . . . . . . . . . . . . . 16
Buehlman v. Ide Pontiac, Inc.,
345 F. Supp. 3d 305 (W.D.N.Y. 2018) . . . . . . . . . . . . . . 3
Cruz v. Lawson Software, Inc.,
764 F. Supp. 2d 1050 (D. Minn. 2011)  . . . . . . . . . . . . . 6
De Asencio v. Tyson Foods, Inc.,
342 F.3d 301 (3d Cir. 2003), as amended
(Nov. 14, 2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Deane v. Fastenal Co.,
No. 11-CV-0042 YGR, 2013 WL 675462
(N.D. Cal. Feb. 25, 2013) . . . . . . . . . . . . . . . . . . . . . . . . 5

iii
Cited Authorities
Page
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1612 (2018)  . . . . . . . . . . . . . . . . . . . . . . . . . 15
Hoffmann-La Roche Inc. v. Sperling,
493 U.S. 165 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Jibowu v. Target Corporation,
No. 17-CV-03875 (S.D.N.Y.) . . . . . . . . . . . . . . . . . . . . 13
Kelly v. Healthcare Servs. Grp., Inc.,
106 F. Supp. 3d 808 (E.D. Tex. 2015)  . . . . . . . . . . . . . 5
King v. West Corp.,
No. 8:04-cv-318, 2006 WL 118577
(D. Neb. Jan. 13, 2006) . . . . . . . . . . . . . . . . . . . . . . . . . 6
Kohen v. Pacific Inv. Mgmt. Co. LLC,
571 F.3d 672 (7th Cir. 2009) . . . . . . . . . . . . . . . . . . . . 16
Lipnicki v. Meritage Homes Corp.,
No. 3:10-cv-605, 2014 WL 5620603
(S.D. Tex. Nov. 4, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . 5
Mercier v. Sheraton Int’l, Inc.,
981 F.2d 1345 (1st Cir. 1992)  . . . . . . . . . . . . . . . . . . . 14
Morgan v. Family Dollar Stores, Inc.,
551 F.3d 1233 (11th Cir. 2008) . . . . . . . . . . . . . . . . . . . 7
Oetinger v. First Residential Mortg. Network,
No. 3:06-cv-381-H, 2009 WL 2162963
(W.D. Ky. July 16, 2009) . . . . . . . . . . . . . . . . . . . . . . . . 6

iv
Cited Authorities
Page
Pequero v. Montafon,
No. 18-CV-12187, 2020 WL 4016756
(S.D.N.Y. July 15, 2020)  . . . . . . . . . . . . . . . . . . . . . . . 12
Richter v. Dolgencorp, Inc.,
No. 7:06-cv-1537-LSC, 2012 WL 5289511
(N.D. Ala. Oct. 22, 2012) . . . . . . . . . . . . . . . . . . . . . . . . 6
Scott v. Chipotle Mexican Grill, Inc.,
954 F.3d 502 (2d Cir. 2020) . . . . . . . . . . . . . . . . . passim
Shady Grove Orthopedic Assocs., P.A. v.
Allstate Ins. Co.,
559 U.S. 393 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Thiessen v. Gen. Elec. Cap. Corp.,
267 F.3d 1095 (10th Cir. 2001) . . . . . . . . . . . . . . . . . . . 7
Tyson Foods, Inc. v. Bouaphakeo,
136 S. Ct. 1036 (2016)  . . . . . . . . . . . . . . . . . . . . . 8, 9, 10
Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011)  . . . . . . . . . . . . . . . . . . . . . . 4, 5, 6, 7
STATUTES AND OTHER AUTHORITIES
Seyfarth Shaw LLP, Annual Workplace Class
Action Litigation Repor t: 2020 Edition
(2020)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

1
The Wage & Hour Defense Institute respectfully
submits this brief amicus curiae in support of the Petition
for Writ of Certiorari and of reversal.1
INTEREST OF THE AMICUS CURIAE
The Wage & Hour Defense Institute (WHDI) of the
Litigation Counsel of America is an unincorporated,
voluntary association of experienced wage and hour
defense attorneys from over two dozen law firms across
the United States.2 WHDI members are selected for their
skill and experience defending litigation under the federal
Fair Labor Standards Act (FLSA) and state wage and
hour laws. 3
WHDI members and their clients, including employers
of all sizes in every industry, have a strong interest in
addressing interpretations of the FLSA that deny due
process to defendants, erroneously certify individual
1. Counsel of record for all parties received notice of the
amicus curiae’s intention to file this brief at least 10 days prior to
the due date. The parties have provided blanket consent to the filing
of amicus briefs. Counsel for amicus curiae WHDI authored this
brief in its entirety. No counsel for a party authored this brief in
whole or in part, and no party or counsel for a party made a monetary
contribution intended to fund the preparation or submission of this
brief. No person other than amici curiae, WHDI, its members, or
their counsel made a monetary contribution to its preparation or
submission.
2. See Wage & Hour Defense Institute, Home, https://
wagehourdefense.org/ (last visited Sept. 29, 2020).
3. See Wage & Hour Defense Institute, Member Directory,
https://wagehourdefense.org/member-directory/ (last visited Sept.
29, 2020).

2
plaintiffs’ claims for collective treatment, and give
rise to increasingly burdensome litigation, such as the
interpretation set forth in the Second Circuit’s decision
below. WHDI’s members have perspectives and practical
experience to assist the Court in assessing issues of law
and public policy raised in this case beyond the immediate
concerns of the parties.
SUMMARY OF THE ARGUMENT
The standard for decertification of an FLSA collective
action set forth in the Second Circuit’s decision upends
fundamental principles of due process, as courts within
that circuit are effectively precluded from considering
the merits of employers’ defenses. In other words, the
focus in Scott on whether any similarity exists “in law or
fact,” to the exclusion of other considerations, deprives
employers defending FLSA collectives from a just
determination of the claims against them. Beyond its
immediate impact on the question of decertification, the
test articulated in Scott has already inspired plaintiffs
asserting similar claims to argue that the decision must
have the ripple effect of lowering threshold for initial,
conditional certification in the Second Circuit as well. In
so doing, Scott not only deepens the existing split among
courts as to the standard necessary for decertification,
it also threatens to expand the divide as to the standard
for conditional certification. Moreover, Scott’s improperly
low threshold for decertification will entice plaintiffs to
“forum shop” when pursuing FLSA collective actions,
resulting in the Second Circuit having a disproportionate,
and inappropriate, impact on FLSA litigation nationwide.
For these reasons, which are addressed in detail below,
the Petition should be granted.

3
ARGUMENT
I.

Scott Unreasonably Prevents Lower Courts from
Balancing Multiple Factors to Achieve a Fair
Result Consistent with Due Process and Deepens
the Circuit Split Regarding FLSA Conditional
Certification and Decertification

Evaluating whether a defendant has individualized
defenses to the plaintiffs’ claims or whether collective
treatment is proper under a “multifactor” approach
appropriately balances the parties’ rights to a just,
speedy, and inexpensive determination of their claims
(see Hoffmann-La Roche Inc. v. Sperling, 493 U.S. 165,
170 (1989) (“The judicial system benefits by efficient
resolution in one proceeding of common issues of law and
fact ….”)) and their rights to due process (see Buehlman
v. Ide Pontiac, Inc., 345 F. Supp. 3d 305, 313 (W.D.N.Y.
2018) (factors to consider include, inter alia, “fairness
and procedural considerations counseling for or against
collective action treatment.”)). For plaintiffs, this
means their clams are fairly considered on the merits;
for defendants, this means their defenses, especially
individualized defenses, may be fully presented to the fact
finder and decided. Such an approach saves the parties
time and money and conserves judicial resources. As a
result, the Second Circuit’s criticism of the “multifactor”
approach to decertification applied in other circuits—
specifically, that it provides a “back door” for courts to
apply Rule 23(b)(3) requirements to collective certification
questions—is misplaced. See Scott v. Chipotle Mexican
Grill, Inc., 954 F.3d 502, 520 (2nd Cir. 2020). Two of this
Court’s recent class and collective action cases illustrate
how the Scott holding conflicts with well-established
principles of due process and fundamental fairness.

4
First, Scott conflicts with principles articulated in
Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338 (2011):
Addressing commonalties (or similarities) cannot be
accomplished in a vacuum, and defendants must be able to
present all available individual defenses to class members’
claims, lest they be deprived of due process.4 See id. at 366.
In Dukes, the Court first analyzed Wal-Mart’s policy that
local supervisors may exercise discretion over employment
matters and statistical evidence that pupported to
show gender discrimination in the application of local
supervisors’ discretion. Id. at 356. The Court’s rigorous
analysis—looking beyond the black letter of the policy and
its impact—revealed there were myriad reasons a local
manager may exercise discretion and that “demonstrating
the invalidity of one manager’s use of discretion will do
nothing to demonstrate the invalidity of another’s.” Id. at
355-56. Beyond that, the use of common, national statistics
could not prove disparities between and among regions
or individual stores. Id. at 357. Scott, of course, does not
stand for the proposition that courts must perform such a
rigorous analysis of the similarities issue and, on remand,
the Second Circuit ordered the district court to consider
Chipotle’s uniform classification, expectations, and single
job description without considering the evidence of what
employees actually did.
Scott essentially charts the same path in the FLSA
collective realm as the Ninth Circuit’s decision did in
Dukes. In reversing that decision, the Court explained the
4. Dukes, of course, is a Rule 23 class action case, not an
FLSA collective action. But this Court’s admonitions regarding
the importance of individualized inquiries and allowing defendants
to present particularized defenses apply with equal force in the
collective action context.

5
practical dangers of certifying classes where individual
issues will predominate at trial. Dukes, 564 U.S. at 352. If,
on remand, the district court in Scott applies the Second
Circuit’s rule and finds collective treatment proper based
simply on a uniform classification, Chipotle’s expectations
about core duties, and a single job description, the district
court would still be forced to grapple with devising a
trial—or more likely several trials—to address the chasm
of differences among the named plaintiffs around their
actual job duties, which the district court had already
found were “internally inconsistent and distinguishable.”
Scott, 954 F.3d at 508 (quoting the district court). This
is why courts across the country (even before Dukes)
held that emphasizing uniform classification and a single
job description as the keys to similarity improperly
ignores meaningful factual differences that are critical
to an FLSA exemption analysis. See, e.g., Benedict v.
Hewlett-Packard Co., No. 13-cv-00119-BLF, 2016 WL
3742342, at *9 (N.D. Cal. July 13, 2016) (“The Court finds
Plaintiffs’ reliance on the uniform exemption policy …
unpersuasive. ‘The fact that an employer classifies all or
most of a particular class of employees as exempt does not
eliminate the need to make a factual determination as to
whether class members are actually performing similar
duties.’”) (citation omitted); Kelly v. Healthcare Servs.
Grp., Inc., 106 F. Supp. 3d 808, 813 (E.D. Tex. 2015) (“[T]
he decision to uniformly classify all employees as exempt
is not, by itself, a sufficient justification to proceed as a
class action.”); Lipnicki v. Meritage Homes Corp., No.
3:10-cv-605, 2014 WL 5620603, at *3 (S.D. Tex. Nov. 4,
2014) (“Absent similarity in actual job performance, a
uniform classification alone may be insufficient to meet
the certification standard.”); Deane v. Fastenal Co., No.
11-cv-0042-YGR, 2013 WL 675462, at *2 (N.D. Cal. Feb. 25,
2013) (“Plaintiffs cannot simply rely on the fact that [the

6
employer] categorized them all as exempt, but must show
a “substantial level of commonality” among the duties
performed and time spent on them ... [T]he discrepancies
between the tasks performed, as well as the proportion of
time each of them spent on those tasks, makes collective
treatment here impracticable.”); Richter v. Dolgencorp,
Inc., No. 7:06-cv-1537-LSC, 2012 WL 5289511, at **2‑9
(N.D. Ala. Oct. 22, 2012) (decertifying collective despite
company-wide use of executive exemption for managers
because exemption determination requires extensive,
fact-based inquiry as to each plaintiff’s job duties); Cruz
v. Lawson Software, Inc., 764 F. Supp. 2d 1050, 1058 (D.
Minn. 2011) (“[t]he classification process is not strong
evidence when evaluating whether employees are similarly
situated.”); Oetinger v. First Residential Mortg. Network,
No. 3:06-cv-381-H, 2009 WL 2162963, at *3 (W.D. Ky. July
16, 2009) (decertifying collective where class members’
work varied based on manager and team; explaining that
“the employer’s classification means little compared to the
employee’s actual job duties and circumstances”); King v.
West Corp., No. 8:04-cv-318, 2006 WL 118577, at *14 (D.
Neb. Jan. 13, 2006) (employees with uniform job titles and
similar job descriptions are not similarly situated “if their
day-to-day job duties vary substantially”).
Dukes also illustrates the importance of evaluating
whether the defendant’s right to present individual
defenses counsels against proceeding in a class or
collective manner. In Dukes, the district court certified
the employees’ claims for backpay under Rule 23(b)(2) as
“incidental” to injunctive or declaratory relief. Id. at 360.
This Court held that, without a mechanism under Rule
23(b)(2) for Wal-Mart to present defenses to each plaintiff’s
claim for backpay, class treatment was improper. Id. at
366. Plaintiffs and the court of appeals proposed using a

7
sample set of the class members would
be selected, as to whom liability for sex
discrimination and the backpay owing as a
result would be determined in depositions
supervised by a master. The percentage of
claims determined to be valid would then be
applied to the entire remaining class, and the
number of (presumptively) valid claims thus
derived would be multiplied by the average
backpay award in the sample set to arrive at
the entire class recovery—without further
individualized proceedings.
Id. at 367. The Court, however, would not allow a class
to be certified that barred Wal-Mart from “litigating its
statutory defenses to individual claims.” Id.
The rule articulated in Scott, however, would
effectively prevent courts from considering the impact
of individual defenses to otherwise “similarly situated”
collective members. Cf. Morgan v. Family Dollar Stores,
Inc., 551 F.3d 1233, 1262 (11th Cir. 2008) (“[T]he district
court must consider whether the defenses that apply to
the opt-in plaintiffs’ claims are similar to one another
or whether they vary significantly”); Thiessen v. Gen.
Elec. Cap. Corp., 267 F.3d 1095, 1103 (10th Cir. 2001)
(“During this ‘second stage’ analysis, a court reviews
several factors, including … the various defenses
available to defendant which appear to be individual to
each plaintiff[.]”) Failing to address individual defenses
adversely impacts employers’ due process right to present
every available defense that they may have to employees’
claims. In sum, Scott’s exclusive focus on whether there
is a “similarity” with respect to an issue of law or fact, to
the detriment of other important factors, precludes courts

8
from evaluating the entire record to determine whether
collective treatment is proper. This, in turn, deprives
employers defending FLSA collectives from vindicating
their rights to due process and a just determination of
the plaintiffs’ claims.
Second, Scott is at odds with this Court’s decision in
Tyson Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036 (2016),
which requires courts to consider “fairness and utility”
when plaintiffs wish to use statistical or sampling evidence
to establish common facts among class or collective
members. In Tyson Foods, employees alleged that they
were not paid overtime wages when donning and doffing
protective equipment in violation of the FLSA. 136 S.
Ct. at 1043. The employees offered statistical evidence
developed from their experts’ observations of a sample of
employees because neither Tyson Foods nor the employees
had kept record of the time they spent putting on and
taking off equipment. Id. at 1043-44. The Court wrote
that “[i]n many cases, a representative sample ‘is the only
practicable means to collect and present’ relevant data
establishing a defendant’s liability.” Id. at 1047.
The Court’s conclusion that representative samples
were appropriate in Tyson Foods, when combined with the
standard in Scott, would allow plaintiffs to show a similar
question of fact using only representative samples, but
bypassing the case-by-case considerations of “fairness
and utility” also counseled by the Court in Tyson Foods.
Compare 136 S. Ct. at 1049, with Scott, 954 F.3d at 521.
Chief Justice Roberts’ concurring opinion and Justice
Thomas’s dissent illustrate the problem of narrowly
focusing on similarities (the Scott rule) and excluding
evidence of differences and how they impact fairness

9
and due process (factors considered under the flexible
“multifactor” approach).
In Tyson Foods, Chief Justice Roberts analyzed
the experts’ statistical evidence of average donning and
doffing times and concluded that such “common evidence”
could not be reconciled with the jury’s damages award
without individualized evidence of actual donning and
doffing times. Tyson Foods, 136 S. Ct. at 1053. The
employees argued they were entitled to $6.7 million, but
the jury awarded $2.9 million. Id. Chief Justice Roberts
attempted to reconcile the common evidence with the
verdict, but armed with only average donning and doffing
times, the most reasonable inference he could draw was
that the jury must have found that some employees donned
and doffed either for less time than the average or no time
at all. Id. at 1052. Some of these employees necessarily
fell below the 40-hour threshold for overtime pay. But, if
the jury found that some employees worked no overtime,
then the federal court had no Constitutional authority to
award those employees any damages and the jury verdict
potentially could not stand. Id. at 1053. Individualized
evidence of donning and doffing could have rectified this
defect in the jury’s verdict; and, under a “multifactor”
approach, could have resulted in decertification. But under
Scott, evidence of individual time differences could not be
considered or used to decertify.
In dissent, Justice Thomas expanded on the downside
risk of focusing only on commonalities without considering
the impact of individual differences on the employer’s
ability to defend itself:

10
The plaintiffs’ claims here had one element
that was clearly individualized: whether
each employee worked over 40 hours without
receiving full overtime pay. The amount of time
that employees spent on donning and doffing
varied by person because individuals take
different amounts of time to don and doff the
same gear, and their gear varied. This issue
was critical to determining Tyson’s liability
because some employees would not have worked
over 40 hours per week without counting time
spent on donning and doffing. The critical issue
for class certification thus was whether the
individualized nature of employees’ donning
and doffing times defeated predominance.
Tyson Foods, 136 S. Ct. at 1054 (emphasis added). Even
the statistical data showed wide variations between
employees. Id. at 1055. These variations were material;
even slight mistakes in the experts’ average could result
in hundreds of employees having no claim for overtime.
Id. The jury, apparently, agreed with that assessment,
awarding less than half of what the experts’ calculations
would have resulted in. Id.
All of this is to say that district courts should address
similarities, disparities, individualized defenses, and due
process at the decertification stage to determine whether
collective treatment is appropriate. But under Scott, such
inquiries would be improper, thus depriving defendants
of due process in the evaluation of such claims.

11
II. Scott’s Decertification Test Has Been Interpreted
By Plaintiffs to Create a New, and Improper,
Conditional Certification Standard
Most courts agree the first step in the collective action
certification process imposes a “fairly lenient” or “modest”
burden, because plaintiffs usually seek certification prior
to the exchange of significant discovery, and often on the
basis of the pleadings. Courts often “conditionally certify”
collectives, entitling plaintiffs to disseminate notice of
their claims to all individuals allegedly affected in common
by an employer’s purportedly unlawful policy or plan.
At the second step, defendants ask the court to
decertify the collective. To prevail, defendants must
submit evidence showing that plaintiffs are not, in fact,
“similarly situated.” As Petitioner points out, there is a
deep split among the circuit courts of appeal regarding
the appropriate standard for decertification. Nevertheless,
district courts and circuit courts generally agree that,
for due process reasons, the second step is more rigorous
and exacting than the first. They impose a more exacting
burden at the second step because, by then, substantially
more information is available to the parties and the court
to determine whether the individual claims of the opt-in
plaintiffs can be fairly tried as a collective action.
Because step-one conditional certification is presumed
to be more lenient than step-two decertification, plaintiffs
have drawn the lesson that the Second Circuit’s new,
relaxed decertification standard de facto lowers the
conditional certification standard as well. That is, since
Scott, plaintiffs in the Second Circuit have argued that the
burden of proof for conditional certification is now even

12
more “modest” and “lenient” than before, reasoning that
a more permissive first step is necessary to prevent the
two steps from collapsing into one. At least one court has
bought into this reasoning. In Pequero v. Montafon, No.
18-CV-12187, 2020 WL 4016756 (S.D.N.Y. July 15, 2020),
the court explained its view of the significance of Scott to
conditional certification as follows:
As for the initial procedural step, the [Scott]
court provides less guidance, but, logically,
there should certainly be no more stringent
test for “similarity” at the first, more lenient,
stage of the certification process than at the
second. Thus, this Court understands that the
requirement that the named plaintiffs make
an initial “modest factual showing that they
and others together were victims of a common
policy or plan that violated the law,” means
that they must simply show, through pleadings,
affidavits, and/or declarations that are not
entirely conclusory, that they and the potential
opt-in plaintiffs share at least some similar
issue of material law or fact with respect to
the defendant’s alleged unlawful wage policy
or plan.
Id. at *6. Put differently, Pequero concluded that plaintiffs
are no longer even required to demonstrate at the first
step that they were subject to a common, unlawful plan.
Rather, in the court’s view, they may satisfy the stepone conditional certification standard simply by alleging
that they share just some facet of a policy or plan. Thus,
Pequero reads Scott to mean that plaintiffs’ first-step
burden is paltry and can be satisfied by as little as a single
declaration that is not “entirely conclusory.” Id.

13
Scott’s distorting impact is also on display in Jibowu
v. Target Corporation, No. 17-CV-03875 (S.D.N.Y.). There,
plaintiffs moved to conditionally certify a collective of
about 14,000 managers purportedly misclassified as
exempt from overtime. Defendant opposed conditional
certification with anecdotal and statistical evidence
showing managers devote materially different amounts
of time to managerial tasks. In supplemental briefing,
plaintiffs argued that Scott impacted not only the
standard for decertification, but also the standard for
initial conditional certification, and relied on Scott to
argue that individualized issues “cannot possibly defeat
first stage notice at which time the merits are not even to
be considered.” Id., Dkt. No. 115, p. 2. According to the
Jibowu plaintiffs, it is enough to point to the existence of
a “uniform classification [analysis], common policies, and
common job descriptions.” Id. In subsequent briefing, the
plaintiffs again argued that Scott relaxes the first-step
standard, positing that the mere presence of a “uniform
corporate policy detailing employees’ job duties” alone
now suffices. Id., Dkt. No. 118, p. 1. The Jibowu plaintiffs’
efforts to expand Scott to the conditional certification
stage illustrates another practical impact of the decision
on FLSA litigation.
Of course, the question of the appropriate standard
for step-one conditional certification was not at issue in
the decision below. And this Court need not reach that
question to resolve the issue presented in the Petition.
That said, as the examples above show, one practical result
of the Scott decision is that it has emboldened plaintiffs to
argue (and at least one court to agree) that their step-one
conditional certification burden is now actually no burden
at all. Thus, Scott not only exacerbates the split among

14
courts regarding the standard for step-two decertification,
it has the effect of deepening the divide as to the step-one
conditional certification standard as well.
III. S c o t t E n s u r e s t h e S e c o n d C i r c u i t W i l l
Disproportionately Impact FLSA Case Law
Petitioners have persuasively argued that Scott’s
decertification standard conflicts with, and is more
lenient than, the standard applied by most circuit courts.
See Pets.’ Br., pp. 14-22. Additionally, courts in FLSA
collective actions generally defer to plaintiffs’ choice of
judicial forum. See Mercier v. Sheraton Int’l, Inc., 981
F.2d 1345, 1349 (1st Cir. 1992). Thus, the Scott decision
will invite forum-shopping, as it gives any prospective
plaintiff a compelling incentive to seek relief for alleged
FLSA violations in courts within the Second Circuit. Cf.
Bartley v. Euclid, Inc., 158 F.3d 261, 281 (5th Cir. 1998),
vacated on other grounds, 180 F.3d 175 (5th Cir. 1999)
(recognizing that endorsing a standard lower than that
used by sister courts gives plaintiffs a “considerable”
incentive to file cases in that jurisdiction because it is
“easier for them to win a case.”).
IV. Scott Will Result in an Increase in FLSA Claims
Styled as Nationwide Collective Actions, Resulting
in Vast Manageability Issues for Litigants and
Courts
Scott will exacerbate the trend of increased FLSA
collective action filings and, in particular, will encourage
individual plaintiffs to plead claims as practically
unmanageable nationwide collective actions to maximize
settlement pressure.

15
As Petitioners point out, FLSA collective actions are
on the rise. Over the last decade, the increase in filings
has resulted in a “burgeoning case load” within the federal
courts and “more FLSA certification rulings than in any
other substantive area of complex employment litigation.”
Seyfarth Shaw LLP, Annual Workplace Class Action
Litigation Report: 2020 Edition, 4-5 (2020). The Scott
decision will only escalate this trend and will further
burden district court dockets with unwieldy, nationwide
collective actions.
Class action lawyers are drawn to FLSA litigation,
where the “plaintiffs’ bar can convert their case filings
more readily into certification orders, and create
the conditions for opportunistic settlements over
shorter periods of time.” Id. at 6. Moreover, plaintiffs’
attorneys are motivated to style an individual’s FLSA
claim as a nationwide collective, thus maximizing the
number of potential opt-in plaintiffs, magnifying issues
of manageability, and vastly increasing the cost of
defense, all of which they can leverage to extract larger
settlements, with limited, if any, regard to the strength of
the underlying merits of the claim. See Epic Sys. Corp. v.
Lewis, 138 S. Ct. 1612, 1632 (2018) (“[I]t’s also well known
that [class actions] can unfairly ‘plac[e] pressure on the
defendant to settle even unmeritorious claims’”) (quoting
Shady Grove Orthopedic Assocs., P.A. v. Allstate Ins. Co.,
559 U.S. 393, 445, n. 3, (2010) (GINSBURG, J., dissenting));
AT&T Mobility LLC v. Concepcion, 563 US 333, 350 (2010)
(“But when damages allegedly owed to tens of thousands
of potential claimants are aggregated and decided at once,
the risk of an error will often become unacceptable. Faced
with even a small chance of a devastating loss, defendants
will be pressured into settling questionable claims. Other

16
courts have noted the risk of ‘in terrorem’ settlements
that class actions entail, see, e.g., Kohen v. Pacific Inv.
Mgmt. Co. LLC, 571 F.3d 672, 677–678 (7th Cir. 2009)”);
Bigger v. Facebook, Inc., 947 F.3d 1043, 1049 (7th Cir.
2020) (“Generally speaking, expanding the litigation with
additional plaintiffs increases pressure to settle, no matter
the action’s merits.”).
With the large-scale collective actions that plaintiffs
will now rush to bring in courts in the Second Circuit
to take advantage of the lower standard set forth in
Scott, defendants will face increasing pressure to settle
instead of moving for decertification on the merits. See De
Asencio v. Tyson Foods, Inc., 342 F.3d 301, 310 (3d Cir.
2003), as amended (Nov. 14, 2003) (“Notably, aggregation
affects the dynamics for discovery, trial, negotiation and
settlement, and can bring hydraulic pressure to bear on
defendants.”). That is to say, plaintiffs’ attorneys will be
incentivized to cobble together large-scale collectives in
order to extract easy settlements from companies that
would rather avoid the staggering cost of nationwide class
discovery and the increased risk of an adverse outcome
under Scott’s lower standard.
In sum, the Scott decision will result in exponential
growth of nationwide FLSA collective action filings in the
Second Circuit, creating vast manageability issues for
federal courts and pressuring defendants into settlements
without regard to the merits of the claims.

17
CONCLUSION
For all of the foregoing reasons, amicus curiae WHDI
respectfully urges the Court to grant the Petition.
			Respectfully submitted,
Joseph G. Schmitt
Counsel of Record
Courtney M. Blanchard
Mark J. Girouard
Pablo Orozco
Daniel J. Supalla
Nilan Johnson Lewis PA
250 Marquette Avenue South,
Suite 800
Minneapolis, MN 55401
(612) 305-7500
jschmitt@nilanjohnson.com
Counsel for Amicus Curiae

